<html>
<title> - OVERSIGHT OF THE 2000 CENSUS: EXAMINING THE GAO'S CENSUS 2000 OVERSIGHT ACTIVITIES</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
OVERSIGHT OF THE 2000 CENSUS: EXAMINING THE GAO'S CENSUS 2000 OVERSIGHT 
                               ACTIVITIES

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 15, 2000

                               __________

                           Serial No. 106-146

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
66-541 CC                   WASHINGTON : 2000



                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

                       Subcommittee on the Census

                     DAN MILLER, Florida, Chairman
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
PAUL RYAN, Wisconsin                 DANNY K. DAVIS, Illinois
MARK E. SOUDER, Indiana              HAROLD E. FORD, Jr., Tennessee
------ ------

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                      Jane O. Cobb, Staff Director
              Lara Chamberlain, Professional Staff Member
               Esther Skelley, Professional Staff Member
                           Amy Althoff, Clerk
           David McMillen, Minority Professional Staff Member



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 15, 2000................................     1
Statement of:
    Mihm, J. Christopher, Associate Director, Federal Management 
      and Workforce Issues, U.S. General Accounting Office, 
      accompanied by Randolph C. Hite, Associate Director, 
      Accounting and Information Division, U.S. General 
      Accounting Office; and Robert Goldenkoff, General 
      Accounting Office..........................................    13
Letters, statements, et cetera, submitted for the record by:
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................    50
    Hite, Randolph C., Associate Director, Accounting and 
      Information Division, U.S. General Accounting Office, 
      information concerning DCS 2000............................    46
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............    11
    Mihm, J. Christopher, Associate Director, Federal Management 
      and Workforce Issues, U.S. General Accounting Office, 
      prepared statement of......................................    17
    Miller, Hon. Dan, a Representative in Congress from the State 
      of Florida, prepared statement of..........................     4



OVERSIGHT OF THE 2000 CENSUS: EXAMINING THE GAO'S CENSUS 2000 OVERSIGHT 
                               ACTIVITIES

                              ----------                              


                       TUESDAY, FEBRUARY 15, 2000

                  House of Representatives,
                        Subcommittee on the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:04 p.m., in 
room 2203, Rayburn House Office Building, Hon. Dan Miller 
(chairman of the subcommittee) presiding.
    Present: Representatives Miller, Maloney, and Davis.
    Staff present: Timothy J. Maney, chief investigator; Chip 
Walker, communications director; Erin Yeatman, press secretary; 
Lara Chamberlain and Esther Skelley, professional staff 
members; Jo Powers, assistant press secretary; Amy Althoff, 
clerk; David McMillen and Mark Stephenson, minority 
professional staff members; and Earley Green, minority 
assistant clerk.
    Mr. Miller. Good morning. Mrs. Maloney should be here 
momentarily, but I think we're ready to begin. And I'll make my 
opening statement and Mrs. Maloney will be here certainly in 
time for hers.
    Good afternoon. Last week we heard from Census Bureau 
Director Dr. Kenneth Prewitt. Dr. Prewitt testified that the 
activities for the 2000 census were on schedule and, at the 
time, no major problems existed. This included an ad campaign 
that was running smoothly and hiring that was on schedule.
    I want to be clear from the outset about the purpose of 
this hearing. The purpose of this hearing is to have the 
nonpartisan General Accounting Office, the investigative arm of 
the U.S. Congress, give us its professional assessment of where 
they believe the Census Bureau is with respect to the myriad of 
tasks that must be carried out successfully in the upcoming 
months.
    I believe it is critical that this Congress not only fully 
fund the Census, but fully promote it as well. Yet, at the same 
time, this Congress, and specifically this subcommittee, has a 
responsibility to conduct oversight of the census and the 
spending of almost $7 billion in taxpayer dollars. If the 
nonpartisan GAO fully endorses the Bureau's own assessment of 
the state of the census 2000, nothing would make me happier. 
However, if its assessment differs, this subcommittee must know 
and know quickly. The Members of this body are the ones elected 
to provide stewardship over the Federal Government. The elected 
Members of this body are also the ones ultimately held 
accountable by the American people.
    The mission statement of the nonpartisan GAO, as stated on 
its website, says the following,

    The GAO's mission is to help the Congress oversee Federal 
programs and operations to assure accountability to the 
American people. GAO's evaluators, auditors, lawyers, 
economists, public policy analysts, information technology 
specialists, and other multi-disciplinary professionals seek to 
enhance the economy, efficiency, effectiveness, and credibility 
of the Federal Government, both in fact and in the eyes of the 
American people.
    GAO accomplishes its mission through a variety of 
activities including financial audits, program reviews, 
investigations, legal support and policy/program analyses. GAO 
is dedicated to good government through its commitment to the 
values of accountability, integrity, and reliability.

    From the outset, this committee has relied on the 
professionals at the nonpartisan GAO to provide important 
insight into a number of complex operations within the Census 
Bureau and elsewhere. Many of those professionals at GAO were 
involved in reviewing the 1990 census, including Chris Mihm, 
Associate Director, Federal Management and Workforce Issues, 
who will be testifying today.
    As we get closer and closer to Census Day, April 1, the 
interest in the census continues to rise tremendously. This is 
certainly evident in the increased coverage of the census by 
the news media. Many of these reports are locally oriented, 
focusing on this community or that one, this county or that 
town, this reservation or that rural community.
    I find these stories important. They help to remind me that 
to look at the census as a national census, controlled within 
the beltway, is very wrong. While the census produces a 
national head-count, that head-count is made up of more than 
39,000 local governments that stretch from California to Maine, 
Alaska to Florida, and beyond.
    While Dr. Prewitt, in his testimony last week, said that 
hiring is on or ahead of schedule, there does seem to be some 
problems in various pockets throughout the country. And while 
Dr. Prewitt and Ranking Member Maloney accurately pointed out 
that there are going to be problems in an operation this large, 
there is still reason to be concerned. If the Navajo 
reservation in Arizona is having hiring difficulties, it 
doesn't much matter that the Bureau is ahead of its hiring 
goals in Miami. Additional workers in Miami are not going to be 
flown to Arizona to count the Navajos. Communities that are 
doing well do not have the ability to help those communities 
that are doing poorly.
    Dr. Prewitt also accurately noted that not all news stories 
are accurate and not all news stories are highlighting certain 
Census Bureau shortcomings. As Dr. Prewitt said later in his 
testimony, one of the ways Congress and the American people 
would know about a serious problem with the operational plan is 
through news reports.
    So when Congress has conflicting reports on, for example, 
the success of the employment operation, it rightfully turns to 
the GAO to shed light on this conflict and, hopefully, 
reconcile the matter one way or the other or, at a minimum, 
provide Congress with more information to consider.
    Beyond the employment issues, which are at an important 
stage, the subcommittee will hear today the status of the DCS 
2000, the new data capture system. The Bureau expects to 
capture nearly 1.5 billion pages of data from approximately 119 
million households. These pages will be captured at four data 
capture centers where the handwritten forms will be optically 
scanned, converted into files, and transmitted to Bureau 
headquarters for tabulation and analysis.
    The GAO has recently released a report on the DCS 2000. The 
GAO and the Inspector General's Office are very concerned about 
delays and overestimated productivity regarding the operation 
of the DCS 2000 system. If the DCS 2000 system does not 
function properly, there will be serious problems in providing 
the apportionment data to Congress on time, as required by law.
    In December, the nonpartisan GAO released a report 
outlining its concerns that the Census Bureau was in serious 
need of a solid contingency plan. Last week, I was encouraged 
to hear a few details about its contingency planning, such as 
increasing wages and staying in the field longer than planned 
doing non-response followups, but more is needed. Today the 
subcommittee hopes to hear more about these reports as well as 
future activities of the GAO.
    Again, thank you for coming in to testify before the 
subcommittee. And now I yield to the ranking member from New 
York, Mrs. Maloney.
    [The prepared statement of Hon. Dan Miller follows:]
    [GRAPHIC] [TIFF OMITTED] T6541.001
    
    [GRAPHIC] [TIFF OMITTED] T6541.002
    
    [GRAPHIC] [TIFF OMITTED] T6541.003
    
    [GRAPHIC] [TIFF OMITTED] T6541.004
    
    [GRAPHIC] [TIFF OMITTED] T6541.005
    
    Mrs. Maloney. Thank you, Mr. Chairman, and welcome to the 
witnesses today.
    The GAO is Congress' premiere watchdog, responsible for 
providing credible, objective, and nonpartisan reports and 
evaluations of the programs and management of the executive, 
judicial, and, in some cases, legislative branches of 
government. Without your work, our jobs as legislators and 
overseers of the executive would be almost impossible. So thank 
you for all of your hard work.
    As I said last week, things seem to be going fairly well. 
Recruiting is on track. 520 local census offices are open and 
operational. The paid advertising campaign is moving smoothly 
into its most active phase. Additionally, the legislation--
wait. I'm ahead of myself. The address list is nearly complete. 
Some of the data presented in GAO's testimony indicates that 
there may be some localized hiring problems. Although this is 
helpful information, the GAO's findings do not affect my 
overall judgment that all operations for census 2000 seem to be 
on track.
    As I also mentioned last week, I believe we need to be 
prepared for all contingencies, which is why I've introduced 
H.R. 3581. And I'd like to make it bipartisan, Mr. Chairman. I 
hope you'll join me on it. This legislation would create a 
contingency fund for the 2000 census. If there are problems 
with the mail response rate or with the hiring program, funds 
need to be available to respond to glitches in a very quick 
manner so that the larger job of conducting an accurate 2000 
census can be completed on time.
    Following on recommendations from the GAO, this legislation 
would also expand the labor pool to include active duty 
military personnel and individuals who have received buy-outs 
from the Federal Government. Additionally, the legislation 
would allow recipients of Federal assistance to work for the 
Census without a loss of benefits.
    These are common sense preventive measures to ensure a high 
quality census. I am looking forward to hearing GAO's comments 
on my legislation since I tried to respond to the issues they 
raised in their December report.
    I am also very interested in hearing from you how GAO is 
intending to act out its oversight responsibilities, while at 
the same time being aware of the total number of watchdogs and 
the demands they will be placing on the census at this very 
critical time.
    As you know, in addition to the GAO, overseeing the census 
there is the committee and the committee staff, both sides of 
the Census Monitoring Board, the Commerce Department IG, the 
National Academy of Sciences Review Panel, and the Commerce 
Secretary's Advisory Panels. Each of these groups has important 
jobs and responsibilities. It is my hope that these various 
oversight bodies have an awareness of each other and their 
multiple requests and demands for information.
    While we need strong oversight of the census, we need to 
make sure that the oversight doesn't get in the way of allowing 
the census to do its job. I am very interested in hearing your 
thoughts on this issue. I believe that the 2000 census will be 
one of the most accurate in our Nation's history, especially 
after the raw head-count information is corrected with modern 
scientific methods. I am
confident that the extensive planning that the Census Bureau 
has done over the last decade and all the hard work of the 
Census professionals will pay off with a more accurate count.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]
[GRAPHIC] [TIFF OMITTED] T6541.006

[GRAPHIC] [TIFF OMITTED] T6541.007

    Mr. Miller. Mr. Mihm, if the three of you would stand up 
and raise your right hands so I can swear you in, we'll begin 
with the program.
    [Witnesses sworn.]
    Mr. Miller. Let the record identify that they all answered 
in the affirmative. Mr. Mihm, do you have an opening statement?

 STATEMENT OF J. CHRISTOPHER MIHM, ASSOCIATE DIRECTOR, FEDERAL 
   MANAGEMENT AND WORKFORCE ISSUES, U.S. GENERAL ACCOUNTING 
 OFFICE, ACCOMPANIED BY RANDOLPH C. HITE, ASSOCIATE DIRECTOR, 
 ACCOUNTING AND INFORMATION DIVISION, U.S. GENERAL ACCOUNTING 
    OFFICE; AND ROBERT GOLDENKOFF, GENERAL ACCOUNTING OFFICE

    Mr. Mihm. Thank you very much, Mr. Chairman and Mrs. 
Maloney. I just want to start out by saying how much I 
appreciate your very kind words about the work that the GAO has 
been doing and we look forward to continuing to support the 
subcommittee in its oversight of the decennial census.
    It's a real pleasure to be here to talk about the status of 
the census. I'm very fortunate that I'm joined by two of my 
colleagues: Randy Hite, who manages a range of GAO work on 
Federal technology issues, including technology at the census; 
and Robert Goldenkoff, who has day-to-day responsibility for 
much of our work that we're looking at the decennial.
    My statement today draws upon two recent reports which we 
did at the request of the subcommittee in which we discuss some 
specific operational challenges that have confronted the Census 
Bureau as it moves into the key operations for the 2000 census. 
Today I will highlight these challenges. First, achieving the 
Bureau's mail response rate. Second, collecting accurate and 
timely data from non-respondents. And, third, conducting data 
capture operations.
    Turning to the first major uncertainty facing the Bureau. 
The mail response rate has declined in each of the last two 
censuses and the Bureau expects to receive a 61 percent mail 
response rate for 2000. To help boost public participation in 
the census, the Bureau has instituted an outreach and promotion 
campaign that is as ambitious as it is diverse. As Director 
Prewitt noted last week, television advertisements already have 
appeared on a number of programs and print ads have been placed 
in a wide variety of publications. At the local level, the 
Bureau has secured partnerships with local governments, 
community groups, businesses, and non-governmental 
organizations.
    However, the Bureau's aggressive outreach and promotion 
initiative faces a fundamental challenge. That is bridging the 
historic gap between public awareness of the census and the 
motivation to respond. This gap has been evident both during 
the dress rehearsal taken last year and the 1990 census when 
the public's high level of awareness was not matched by a high 
mail response rate. In 1990, the Bureau found that about 93 
percent of the population reported being aware of the census, 
however the mail response rate was just 65 percent. This basic 
pattern was also repeated during the dress rehearsal.
    With respect to partnerships, the Bureau may have overly 
optimistic expectations concerning the resources and 
capabilities available at the local level to promote the 
census. And here, Mr. Chairman, I completely agree with the 
point that you were making. While the census is a national 
undertaking, it's implemented locally and, therefore, we have 
to look locally for some of our most constructive lessons.
    A key element of the Bureau's local partnership effort is 
the Complete Count Committee Program, which consists of local 
government, religious, media, education, and other community 
centers coming together to promote the census. Clearly, as was 
discussed at last week's hearing, a number of communities are 
aggressively supporting the census. However, the level of 
activity and support for the census is likely to vary across 
the country, in part because of a lack of resources.
    We found that, during the dress rehearsal, the Complete 
Count Committees often lacked the money, people, and/or 
expertise to promote the census. In part to help, the Bureau 
has hired over 600 partnership specialists. However, based on 
the dress rehearsal experience, these specialists may be spread 
too thin to offer meaningful support. Consequently, it is 
unlikely that the Bureau's local outreach and promotion efforts 
will be consistently applied across the Nation.
    The second major challenge facing the Bureau is the need to 
quickly and accurately followup on households that do not mail 
back their census forms. Let me just give a sense of the 
challenge that the Bureau faces. Let's assume that the Bureau 
achieves its 61 percent mail response rate. Obviously, we all 
hope it'll be higher than that, but let's just assume that 
that's what they get. Census takers will then need to followup 
on 46 million households. Completing this workload during the 
Bureau's 10 week schedule will be an enormous challenge.
    By comparison, during 1990, it took the Bureau 14 weeks to 
followup on 34 million households. Thus under the current 
schedule and response rate that the Bureau has, the Bureau will 
need to followup on 12 million more households in less time in 
2000 than in 1990, using essentially the same methodology. And 
this is one of the fundamental challenges that the Bureau 
faces, again, assuming all of its assumptions work out.
    Experience from the 1990 census shows that, as field data 
collection drags on, the accuracy of the information collected 
tends to decline. This is because people move and others have 
difficulty remembering who was residing in their household as 
of April 1. As you discussed with Director Prewitt last week, 
Mr. Chairman, to complete non-response followup, the Bureau 
will collect data from second-hand sources, the proxy sources, 
such as neighbors and mail carriers. Not surprisingly, however, 
such proxy data are not as reliable as data obtained directly 
from household residents.
    During the dress rehearsal, although non-response followup 
operations were completed on schedule in Menominee County and 
Sacramento and 6 days early in South Carolina, the Bureau 
collected proxy data at a much higher rate than it had hoped. 
The Bureau's goal was to limit the proportion of the non-
response followup universe workload that was proxy to less than 
6 percent. Unfortunately, however, in Sacramento, over 20 
percent of the occupied non-response followup households was 
enumerated using proxy data and, in South Carolina, 16.4 
percent and in Menominee County, 11.5 percent. Compared to the 
decennial census in 1990, there was about 6.6 percent of the 
non-response universe was proxy. So we're looking at, at best, 
about double, based on the dress rehearsal experience.
    The Bureau's ability to recruit a sufficient number of 
staff is another key challenge. The Bureau plans to fill about 
860,000 positions for peak field operations, including 539,000 
positions for non-response followup. To fill these positions, 
as Director Prewitt mentioned, the Bureau wants to have a pool 
of 2.4 million qualified applicants by April 19. The Bureau's 
goal was to recruit 45 percent of the 2.4 million qualified 
applicants, about 1.1 million people, by February 1.
    The Bureau data, as of February 9, showed that, nationally, 
the Bureau appears to be well on-track. It had recruited 1.3 
million applicants or just over half of its total target. 
However, national data masks the fact that the Bureau's 
progress in recruiting qualified applicants lags in a number of 
locations. As of February 9, 3 of the Bureau's 12 regions, 
that's Atlanta, Chicago, and Philadelphia, and 178 of the 511 
local census offices, that's about 35 percent, were below the 
Bureau's 45 percent benchmark. Although some local census 
offices were just a few percentage points below the goal, about 
25 of them fell 20 percentage points or more. On the other 
hand, and this is the favorable news, of the 333 local census 
offices that were ahead of the Bureau's February 1 milestone, 
163 of those exceeded it by at least 20 percentage points.
    We suggested in our December 1999 report that Congress may 
wish to consider legislative actions to modify labor provisions 
that could prohibit or financially discourage specific groups 
of people from seeking census employment. Proposals in this 
regard, as Mrs. Maloney mentioned, are included in her 
legislation H.R. 3581.
    The third uncertainty I will discuss today is the need for 
the Bureau to ensure the effective performance of its data 
capture systems. The uncertainty falls into two basic 
categories. First, ensuring the operational readiness of the 
data capture system known as DCS 2000, which is the system that 
each data capture center will use to check in questionnaires 
and record census data. And, second, ensuring the readiness of 
the data capture operations themselves, including the movement 
in the processing of the paper questionnaires.
    As we recently reported, the Bureau has made considerable 
progress in acquiring and deploying the DCS 2000. However, we 
noted that the Bureau was still facing a huge challenge in 
delivering the promised DCS 2000 capabilities on time, 
primarily because much remained to be done within the very 
short time remaining before data capture operations were to 
begin. Under the Bureau's current schedule, it has just 9 days 
between the conclusion of the last system test and the date the 
DCS 2000 must be operational in early March.
    In addition, the numbers of yet-to-be-resolved defects in 
the DCS 2000 were not yet showing the clear and sustained 
downward trend that is expected as systems begin to mature. 
Finally, of course, yet-to-be-completed development and testing 
activities may surface even more problems.
    The Bureau and its DCS 2000 development contractor shared 
our concerns that we laid out in the report about the delivery 
of the promised DCS 2000 capabilities on time and, in response, 
were employing a series of important measures to minimize the 
risk and expedite the completion of DCS 2000. The Bureau is to 
conduct a final operational test involving all four of its data 
capture centers on February 22 through 25 and we will be 
monitoring those closely on behalf of the subcommittee.
    Mr. Chairman, as I have discussed, despite intensive 
efforts, the census still confronts some major operational 
uncertainties. Because of these uncertainties, we recommended 
in our report that the Bureau develop a contingency plan of 
actions that it took to address a lower than expected mail 
response rate. We suggested that the Bureau's plan address, at 
a minimum, the budgetary scheduling, staffing, and other 
logistical implications of collecting data from a larger than 
expected number of non-responding households.
    That contingency plan, which we believe should be shared 
with Congress, could include options and procedures to balance 
the pressure to meet census schedules against the need to limit 
the use of proxy data. The uncertainties facing the Bureau's 
data capture system make the need for a contingency plan, in 
our view, even more compelling.
    In summary, the Bureau has put forth a tremendous effort to 
help ensure a complete and accurate count. It has tested and 
retested its design and made significant modifications where 
necessary. Nevertheless, substantial challenges to a successful 
census remain and, as we have done throughout this decade, we 
look forward to keeping the subcommittee informed of the 
Bureau's progress and the results. This concludes my statement. 
My colleagues and I would be pleased to answer any questions 
that you may have.
    [The prepared statement of Mr. Mihm follows:]
    [GRAPHIC] [TIFF OMITTED] T6541.008
    
    [GRAPHIC] [TIFF OMITTED] T6541.009
    
    [GRAPHIC] [TIFF OMITTED] T6541.010
    
    [GRAPHIC] [TIFF OMITTED] T6541.011
    
    [GRAPHIC] [TIFF OMITTED] T6541.012
    
    [GRAPHIC] [TIFF OMITTED] T6541.013
    
    [GRAPHIC] [TIFF OMITTED] T6541.014
    
    [GRAPHIC] [TIFF OMITTED] T6541.015
    
    [GRAPHIC] [TIFF OMITTED] T6541.016
    
    [GRAPHIC] [TIFF OMITTED] T6541.017
    
    [GRAPHIC] [TIFF OMITTED] T6541.018
    
    [GRAPHIC] [TIFF OMITTED] T6541.019
    
    [GRAPHIC] [TIFF OMITTED] T6541.020
    
    Mr. Miller. Thank you very much for the statement. Let me 
start. You were involved with the 1990 census, I believe. 
Right?
    Mr. Mihm. Yes, sir.
    Mr. Miller. What are your impressions of the overall 
condition and maturity of the operations planned for 2000, as 
compared to the situation that existed prior to April 1, 1990? 
Are we better off? Worse off? Where do we stand? How does it 
compare?
    Mr. Mihm. In important ways, we are better off and in other 
ways we're about the same. And let me start off in the ways in 
which I think we're a little bit better off.
    Certainly, it appears that, at the national level, the 
Bureau's recruitment is going better than it did in 1990. They 
have a paid advertising campaign this time around. Last time, 
they were relying on pro bono, which was a bit of a challenge 
because they were showing public service announcements at 2 
a.m., when people wouldn't be seeing them. And, as you 
discussed with Director Prewitt at the last hearing, the 
advertising campaign, as a result, since it's paid, is far more 
sophisticated this time around.
    They also have extended the number of partnerships this 
time around. They have about 55,000 different partnerships. Of 
course, not all of them are as important as those that they 
have with local governments.
    Where they are about in the same state, however, is that 
they are still showing pockets of areas where they have 
problems in recruiting. And that was an issue that we saw in 
1990 and what that lesson told us is that it is very difficult, 
once you get behind the eight-ball, to sufficiently recover. 
That is, the recruitment problems build on each other and you 
end up having staffing problems during the census. We also saw 
during 1990 that the use of partnerships, while important, was 
also inconsistent across the country and it's something that, 
as our work now suggests, they're going to have a similar 
problem with this time.
    And, finally, I guess a third area where they still have a 
challenge is that while the quality and the placement of the 
ads is far better this time, in my sense, than it was last 
time, we still don't know and the Bureau doesn't know, whether 
we have made the critical link between people being aware of 
the census and actually being motivated to respond. And those 
are the key challenges that the Bureau faced going into peak 
operations in 1990. And I see they're pretty much the key 
challenges this time around, as well.
    Mr. Miller. The hiring process is going fairly well, 
reasonably well. I recognize, of course, there are pockets of 
problems. That's probably because it was paid advertising, we 
think. One of the things you're not too sure of is what will 
the overall $100 million of ad buys, you know, do. I'm a big 
supporter of the advertising plans. I'm optimistic that's going 
to be a big help. But, at any rate, that's kind of encouraging, 
to some extent, that it's helping with our hiring in a full 
employment economy. I know 1990 was fairly close to a full 
employment economy, but not as full as it is right now.
    Mr. Mihm. But not like right now.
    Mr. Miller. So that's encouraging.
    You heard Dr. Prewitt testify that he could not come up 
with a contingency plan until he saw which census operations do 
not meet expectations. Is this legitimate? Or do you think a 
contingency plan for every major obstacle is truly feasible? 
And they really do have a contingency plan, don't you think? 
That they don't want to make public?
    Mr. Mihm. Let me start with the first one and then, 
hopefully, I'll be able to dodge the second. [Laughter.]
    The first question about the feasibility of a contingency 
plan, we would take a different perspective than the director 
on that. We think it is important and it's also publicly shared 
this with Congress. We saw during 1990, we saw during the dress 
rehearsal, that limiting the amount of proxy data is very, very 
difficult for the Bureau. And that it becomes an enormous 
challenge as operations are going on, just the natural pressure 
of ``let's get out into the field and get on with subsequent 
operations,'' that they need to step back now and think about 
how they're going to control the amount of proxy information, 
how they're going to look at the relationships between mail 
response and staffing needs and workloads at a localized level 
rather than at the national level.
    So we think that there is a real need for a looking at a 
contingency plan.
    Now I didn't mean to be flip about the second part of your 
question, Mr. Chairman. I don't know if they have something in-
house. I agree with your opening statement that it was 
important. Director Prewitt's statement last week was the first 
time that I had heard a public statement from the Bureau that 
they would be willing to extend non-response followup 
operations if they weren't completed in time. In the past, some 
senior people have been quite adamant with us that they would 
be done in the 10 weeks and that was it.
    Mr. Miller. What assurances does GAO have that the Census 
Bureau will stay in the field as long as prudent to get non-
response followup work done? I mean, if he said 10 weeks, we 
can finish in 10 weeks by just using more proxy data.
    Mr. Mihm. Yes, sir.
    Mr. Miller. Is the expectation to use more proxy data 
because they are committed to that 10 weeks? If you use 14 
weeks, there will be a much smaller non-response number. Is 
that going to be their intention? Is that your impression, that 
they're going to just use more proxy data, which is not as 
accurate, we all agree?
    Mr. Mihm. We hope that the experience of the dress 
rehearsal is not instructive in this case, in which they got 
out of the field on time or even early, but it appears at the 
expense of having much higher rates of proxy information than 
they had wanted.
    One of the critical elements that they need to look at, and 
then hopefully would be informing the Congress and keeping the 
Congress aware of, is that as they are in the field longer, 
there is more of a tendency to use proxy data. There is also 
more of a tendency for people who they get from the households 
to either be forgetful or to not give the correct information. 
So just being in the field a long time is not good. The use of 
proxy information is not good, in terms of data quality. A 
careful balance needs to be made and they need to be looking at 
that right now rather than waiting until everything is really 
going on in the census and then on a case-by-case basis be 
making those decisions.
    Mr. Miller. Thank you. Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman. I'm a little 
confused about the workload for non-response followups that you 
talk about in your report. According to your report, with the 
expected mail-back response at 61 percent, the Census Bureau 
will have to visit 46 million addresses. You go on to point out 
that they have to complete interviews with roughly 650,000 
households each day. That does sound like an overwhelming task, 
but with 500,000 interviewers in the field, that is only 1.3 
households a day or 9 a week. That sounds much easier and very 
doable. It's my understanding that the Census Bureau's 
assumptions about productivity is that each interviewer will 
complete about 1 household an hour or about 25 interviews a 
week.
    Can you explain to me and to the panel why you believe that 
it will be difficult for Census interviewers to complete 9 
households a month and why that is so different from the 25 
households a week in the budget assumptions?
    Mr. Mihm. Yes, Ma'am. The point we were making in our 
report is just that the very scope of the Bureau's efforts are 
enormous. We're actually making two points.
    Mrs. Maloney. The greatest peacetime mobilization ever.
    Mr. Mihm. That's our mantra. And if there's ever a bigger 
one, ``the second greatest peacetime'' will not ring as well.
    The point we were making was that, just as the greatest 
peacetime operation ever, it's an enormous challenge and, as 
you're pointing out, that if they make their assumptions on 
mail response, if they make their assumptions on workload, if 
they make their assumptions on staffing, we're talking 670,000 
cases and it will not be undoable for them. They'll be able to 
finish on time or at least the math works that they'll be able 
to finish on time.
    However, the second point that we were making is that that 
is fraught with a whole series of difficult assumptions or, as 
we call them, challenges and uncertainties about whether 
they'll make the mail response; whether they will get the 
enumerator staffing that they need; whether people will be 
willing to cooperate with them on a sufficient level. Those are 
all the things that, in our view, at least raise the concern of 
risk with the census.
    But I quite agree with the point that you were making that 
the math, in a sense, works out. That is, if they make their 
assumptions, they should be able to finish on schedule.
    Mrs. Maloney. You've certainly reviewed the Bureau's 
assumptions about recruitment, retention, and productivity of 
enumerators. If you feel the 10 schedule is too short, where 
are these assumptions in error?
    Mr. Mihm. The biggest problem that I think the Bureau will 
face, and it gets back to the difference between a national and 
local examination of the census, is that we know in a 
percentage of district offices, that it will take the Bureau 
much longer than the 10 weeks in order to finish non-response 
followup. The last offices to close, I regret to report, were 
in the New York regional office in New York City. Some of them 
took 14 weeks.
    And the challenge, and I know this won't be news to you, 
Ma'am, is that these are also the areas where it is among the 
hardest to enumerate. And so you have a snowball, in effect, of 
interrelated challenges for the census: poor mail response 
rate, hiring difficulties, high workload, large proxy data, 
schedule problems. All of those come together in, not 
nationally, but in hard-to-enumerate areas and in enough areas 
to matter that hamper the overall success of the census.
    Mrs. Maloney. Well, I read your report carefully. And, 
based on your report, I introduced legislation that would 
create a contingency fund of $100 million for census 2000. And 
I am hoping that you've had an opportunity to review this 
legislation and I'd like your comments. The fund could be 
accessed if you run into serious problems. For example, if the 
mail response rate dropped significantly, a point that you 
continue to raise. My bill also expands the labor pool for 2000 
census among certain specific groups, another recommendation 
you put forward that I followed up on, along with many of my 
colleagues, including active-duty members of the military, 
those receiving certain Federal benefits, and Federal retirees 
who have received buy-outs.
    Mr. Mihm. Yes, Ma'am.
    Mrs. Maloney. So I really tried to respond to the 
contingency that you felt needed to be there by offering this 
legislation and I'm wondering about your comments on it. Does 
GAO endorse legislation? [Laughter.]
    Mr. Mihm. Generally not.
    Mrs. Maloney. Even if it's written mirroring your report?
    Mr. Mihm. Well, in this case, the language in the report 
based on the staffing was worded, and we were quite careful on 
this, is that we understand that there are a series of 
competing policy issues with staffing and that's why we offered 
it as a matter for consideration for the Congress.
    Similarly, with the part dealing with the contingency fund. 
Clearly a lower than expected mail response rate has cost 
implications for the Bureau. The Bureau has estimated about $25 
million per percentage point. We've actually estimated it's 
about $34 million per percentage point in direct costs.
    Mrs. Maloney. It all has cost implications.
    Mr. Mihm. Yes, Ma'am.
    Mrs. Maloney. Even if you go past the 10 weeks, there are 
cost implications.
    Mr. Mihm. Yes, Ma'am.
    Mrs. Maloney. So any way you look at it, there are cost 
implications.
    Mr. Mihm. And the Bureau has needed supplementals in the 
past during the decennial census. The best mechanism for 
getting them that money, though, is a policy determination, 
that is, whether it's a contingency fund, whether it's a quick 
supplemental if they need it. It is a policy call that we'll 
leave to the Congress rather than engage in.
    Mrs. Maloney. Well, I have quite a few more questions, but 
my time is up.
    Mr. Miller. Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman. Mr. Mihm, let 
me ask, if you had to give the Census Bureau a letter grade in 
planning and preparation for this undertaking, what would it 
be?
    Mr. Mihm. I think that I would give them a firm ``B.'' I 
think that it is unquestioned that they have worked very, very 
hard throughout the decade. And I know there's been quite a 
contention that we've been involved in as well on the issue of 
sampling and the rest, but they've worked very hard throughout 
the decade and certainly since the court decision to implement 
the best census that they can.
    One of our continuing concerns is that the census is a 
national undertaking under the Bureau's leadership, but all of 
us in other organizations have key roles in making the census 
successful. That is a point that Dr. Prewitt made last week. 
And so, in many cases, they're dependent upon local 
governments. They're certainly most fundamentally dependent on 
citizens to step up. And so, while we have had and will 
continue to have, no doubt, some criticisms of, operationally, 
how the Bureau is doing, fundamentally, our concerns and the 
issues that we raise are about things that are really beyond 
the Bureau's control.
    The economy, as we've been discussing is very, very strong. 
And, to the extent that they can get people to work on the 
census in this sort of economy, that's really to their credit. 
So it's issues such as that. So that's why we can be very 
concerned about the census and call it high-risk while, at the 
same time, I'd give them a firm ``B.''
    Mr. Davis. That they've done a good job and that the other 
things are difficult to really handle.
    Let me ask, 10 years ago there were allegations after we 
finished that there were people who had been counted twice. Are 
you satisfied that the likelihood of that happening, in terms 
of the preparation this time, has seriously diminished?
    Mr. Mihm. We know for a fact that there were people counted 
twice, as you mentioned, in 1990. It's every expectation that 
there will certainly be a percentage of the people that are 
counted twice. It's what the Bureau technically calls 
``erroneous enumerations,'' that is people included twice, this 
time around.
    I think the key to reducing the level of double-counting is 
to limit proxy and get out of the field, as soon as possible. 
And let me give you just one number that kind of underscores 
the issue. People in 1990, people enumerated between January 
and April, who are basically people that mailed back their 
census forms and other early census operations, had an 
erroneous enumeration rate of about 5 percent. That is about 5 
percent of those were double-counted. By the time you got 
through August to December 1990, the erroneous enumeration rate 
climbed to almost 30 percent.
    So, basically, toward the latter part of the year, for 
every three people you add, you add one person in error. And 
that is a real challenge for the Bureau to control that. So, in 
direct answer to your question, we have not looked in detail at 
the procedures they have in place to guard against erroneous 
enumerations this time, other than to urge them to control 
proxy data and to get out of the field as soon as appropriate.
    Mr. Davis. Would you consider that to be one of the big 
concerns? I mean, if there are errors made and especially if 
those errors are made in such a way that some advantage might 
be given to populations that really don't need the advantage, 
would that not be a great concern?
    Mr. Mihm. Certainly. Everything we've seen is that the 
Bureau does try and limit the level of erroneous enumeration. 
We join the Bureau and most others, though, in focusing more 
often on the differential undercount, rather than the rate of 
erroneous enumeration, if, for no other reason, because it's 
higher and more politically at issue.
    Mr. Davis. Let me make sure that I understand that. The 
double-counting, basically, were individuals who may have owned 
two homes or had two residences and may have been counted at 
each?
    Mr. Mihm. That is certainly a part of it. We can certainly 
get for the record, to the extent that the evaluation data is 
available--the precise breakdown on this, but it would also 
include people who did not have a usual residence and may have 
been captured on two different census forms. The Bureau during 
1990 had a coverage improvement program dealing with 
individuals on parole or probation that had a very high 
erroneous enumeration rate as well. But it certainly includes 
the group, sir, that you're talking about.
    Mr. Davis. And, finally, if there were ways to better 
handle the external influences. That is, early on we talked 
about those influences that the Bureau was not in control of or 
could not project as much control of, would you have any 
recommendations on how to improve that?
    Mr. Mihm. I'm sorry, sir. I'm not capturing, I think, the 
essence of your question.
    Mr. Davis. I mean, for example, the extent of local 
government participation. The extent of other agencies being 
involved in assisting to help make sure that the effort is as 
widespread, as broadly based, as we could make it.
    Mr. Mihm. Certainly one of the recommendations that we have 
made to the Bureau is to have realistic expectations for what 
local governments are able to supply. Many of the largest 
cities have very ambitious complete count efforts and are 
really working very hard and have people with one or two 
censuses of expertise in this and know at least as much as the 
people in Suitland.
    However, in other cases, and I think the dress rehearsal 
experience bore this out, some of the smaller governments, more 
rural governments, don't have individuals with the time or the 
expertise or don't have the resources that they can really 
devote to the census. Now the Bureau has a longstanding policy 
that it doesn't fund these local efforts, however it hires 
additional partnership specialists to help out.
    We've looked at the spans of controls of these partnership 
specialists, compared to what they were in the dress rehearsal 
and they weren't able to give adequate support in the dress 
rehearsal and there are even much greater spans of control now. 
And so I think what we're going to see is, again, it's this 
local versus national. We're going to see a very uneven 
application of local support and the Bureau's ability to get 
local governments and local communities to support the census, 
just based on the resources available at a local level.
    Mr. Davis. I'm not attempting to put words into your mouth, 
but it sounds like you're saying that, in some instances, if 
there had been resources to assist the local entity, in all 
likelihood, that would have increased the level of 
participation, which could have helped to increase, overall, 
the level of effectiveness.
    Mr. Mihm. I think, sir, at a minimum, what the Bureau could 
have done is have more of an outreach effort to these local 
governments. We looked at the notebook that it gave to some of 
these local governments and it listed page after page what 
local governments could do to support the census. There is 
virtually nothing on what the Bureau was going to do to support 
the local governments.
    When we were down in South Carolina during the dress 
rehearsal, some representatives of local governments told us 
the Bureau came in, they gave us the hats, the T-shirts, and 
the coffee mugs. And then went away. And, we need more support 
than that, folks. We need the tangible support that you talk 
about and we need knowledge. We need to know how to do this 
sort of stuff.
    So more facilitation and hand-holding would have helped, as 
well.
    Mr. Davis. Well, I thank you very much. And I'm pleased to 
know that I think at least somewhat like the GAO, because I'm 
in absolute agreement with you and I appreciate your response.
    Mr. Mihm. Thank you, Mr. Davis.
    Mr. Miller. We'll have another round, too. I was reading 
the newspaper on my way back, flying back on Monday, I think it 
was in the Washington Journal, about how the city of Detroit is 
putting a lot of the resources of the city into it, but I think 
the city of Chicago is making a specific effort to put their 
own resources into making sure of that good count. They're 
doing advertising and all that. So, you're right, it's going to 
be spotty throughout the country, but those that recognize the 
critical importance, such as Chicago and Detroit in particular, 
they are putting the effort in there.
    I was interested about Mr. Davis' first question about 
grading the Bureau. I'm glad to see the grade. How would you 
grade the contingency plan?
    Mr. Mihm. Oh, well. [Laughter.]
    If I was being charitable, it would incomplete. But that's 
just because I haven't seen it, and so I have no basis to judge 
at this point. I mean, the importance of this I can't stress 
enough--the importance of making it available or making sure 
that Congress gets an opportunity to see what's going on. 
Because we know that, as data collection drags on, there will 
be enormous pressure to close out offices and move on to 
subsequent operations. There needs to be an understanding of 
what sort of controls the Bureau has in place so that we don't 
close out prematurely, that is, don't go to the proxy data 
prematurely. We need to understand the tradeoffs between going 
to proxy data versus staying in the field, both the tradeoffs 
in cost and in quality and in schedule.
    These are all the things that we think that the Census 
Bureau should be willing to talk about and not just say, well, 
we'll come to you if we need more money.
    Mr. Miller. I know that somewhere out there there's a point 
of diminishing returns for census enumerators to stay out in 
the field and continuously pound away at non-response followup. 
I am just concerned that the Census Bureau may decide to 
prematurely put valuable resources into their ACE survey 
instead of exhausting every available alternative in the field. 
Would you comment some more on that?
    Mr. Mihm. That is a concern. And, it's not just a concern 
in the sense of ACE, but it's a concern in terms of any 
subsequent operation that they would do any of the other 
additional coverage improvement operations. This would be part 
of the contingency plan that I think that they ought to be 
willing to discuss with the Congress: If we stay an extra 
couple of weeks in any particular area, here's what the cost is 
in terms of getting in and starting ACE or it may well be that 
there is no cost. Certainly there is no magic requirement that 
the field work on ACE has to start nationally at any one 
period. Just like the census, the ACE is done locally as well.
    So this is the type of issue that they should be talking to 
the Congress about and letting you know what are some of the 
challenges and tradeoffs that they face. And they should be 
doing this ahead of time, rather than tell us later that the 
census is in real trouble.
    Mr. Miller. I agree. I'm concerned that they haven't shared 
with us a contingency plan. I feel there is a contingency plan. 
And, as Dr. Prewitt talked about yesterday--about possibly 
staying in the field longer or putting more money into this or 
how much you pay enumerators, it's part of that process. I 
think as far as money since it's over twice as much as the 1990 
census, as you point out in your report, I think there's a lot 
of cushion in that money to be able to move around and shift it 
to those areas that may need the additional resources to 
complete them.
    But I do have a concern that ACE is driving the close-out 
procedures, which would sacrifice a full-enumeration census, 
which would be unfortunate. And you share that concern, I 
guess, yes?
    Mr. Mihm. It is something that we are going to be looking 
at very closely as non-response followup operations get 
underway, as to what controls the Bureau has in place when they 
close out, what the level of proxy information is that they're 
collecting in these last offices. During 1990, the areas that 
were the hardest to enumerate for them, large urban offices, it 
was not uncommon for them to average 20 percent or more proxy 
data of their non-response universe and this is a real concern 
when you're getting that percentage of the population that's 
based on proxy.
    Mr. Miller. And the later you get in the field for ACE, the 
less accurate ACE can be. If you have to wait 14, 18 weeks, you 
know, or whatever----
    Mr. Mihm. Yes, sir. They're asking people also, just like 
with non-response, you're asking them to recall April 1, in ACE 
you're asking them to recall April 1 as well.
    Mr. Miller. Right. Despite the Bureau's efforts, the data 
capture system may still be at risk. Do you have any 
suggestions as to anything more the Bureau can do to diminish 
that risk at this late date?
    Mr. Mihm. Randy's really the expert on that and I'll ask 
him to.
    Mr. Hite. I have two responses to that. The first deals 
with, at the time that we were looking at DCS 2000, we 
identified the high probability that, given the significance of 
the events that remained and the nature of the events that 
remained, relative to developing and deploying DCS 2000, there 
was considerable risk that everything was not going to get done 
on time. And, at that time, we spoke to the Census and its 
development contractor about how they could address this and 
the type of risk mitigation strategies that would be effective. 
Both the Census and the contractor were very responsive to this 
and, in fact, as we note in our report, put mitigation 
strategies in place.
    What has happened since we've done our evaluation has borne 
out one of our concerns, which is the type of events that 
remained, test events, are events intended to identify 
problems. That's what tests are designed to do; they identify 
problems. They don't demonstrate the absence of problems, but 
the presence of them. And what has happened as a result of the 
problems that have surfaced recently and that we just became 
aware of this past Friday, is that in order to address the 
problems, they've decided that they need to modify the system.
    And so here we are at the late stage in the development and 
implementation process where Census will need to modify the 
system, where Census will need to release the software changes, 
and then Census will have to test them in the field. And so 
what they've done is exasperated a risky situation, because the 
test event will occur I believe the 22nd through the 25th, when 
these changes will be tested. And that will leave you 9 days to 
address any problems that the test will surface. And, as I 
mentioned before, tests are designed to identify problems. Nine 
days is not a whole lot of time to deal with problems.
    Mr. Miller. Is there a better data capture project, 119 
million forms, in any other Federal program that can capture 
that much data in such a quick period of time?
    Mr. Hite. The similar application that comes to mind is the 
tax processing systems, because the forms come in within a 
certain timeframe and they have to be processed within a 
timeframe. It's heavily manual, but it is also heavily 
automated, too. That tax processing infrastructure has been in 
place for a long time and it's really done, as you know, year 
after year. So, in that sense, it is a different situation.
    But census data capture, in some ways, is analogous to the 
Y2K problem because there, too, we had an immutable deadline 
that we had to deal with. And what happened was agency efforts 
were pushing further and further back up against the deadline. 
And any system development, any system maintenance effort, 
unless you change requirements and thus reduce the magnitude of 
the task that you're trying to accomplish, the only thing that 
can give is the testing process. And what we have here is where 
testing is the end of the process, but if problems surface, 
they will have to be corrected and then retested, again, to 
make sure that they, in fact, the system is performing 
correctly.
    Mr. Miller. Thank you. Mrs. Maloney.
    Mrs. Maloney. You said that the Bureau needs to, ``limit 
the use of proxy data and get out of the field as quickly as 
possible.'' So if the response rate drops below the 
expectation, would it be better to keep enumerators in the 
field beyond the planned 10 weeks or would it make more sense 
to put more enumerators in early in an attempt to get the total 
out there quickly and to get out of the field as soon as 
possible? What would be better?
    Mr. Mihm. Mrs. Maloney, it would always make more sense for 
the Bureau to put as many enumerators in the field as early as 
they possibly can. They are going to try and hire well over 
500,000. If they can get 600,000, that's better. If they can 
get more than that, that's always better. And this has been the 
Bureau's traditional position, is that they will say this is 
how many positions we have, but if they get two applicants who 
are qualified, pass the test, pass the background check, 
they'll split a position into two positions in order to get 
people in there. However, that often does not happen because of 
the hiring problems that they have. But, nevertheless, it is 
always better for them to get as many people in as possible so 
that they can get out of the field with as complete data as 
possible.
    Mrs. Maloney. Following up on the labor market, you noted 
in your testimony that 25 LCOs fell short of their recruitment 
goals by 20 percentage points or more. You also note that 163 
offices exceeded the 45 percent goal by 20 percent or more. To 
me, that sounds pretty good.
    I'm curious about two or three things, though. Are there 
generally any similarities about the offices with recruitment 
problems? Are there procedures in place to address the 
shortfall areas, like intensified promotion or maybe sharing 
recruits among different LCOs, if they are close enough? 
Finally, are there any recruiting problems in New York City? 
[Laughter.]
    And, I might add, Chicago or Florida? [Laughter.]
    Are we 1 of those 25 LCOs, any of us?
    Mr. Mihm. Well, Chicago is one of the three regions that is 
having the most problems. 25 of its district offices, to each 
region there's usually 40 to 45 district offices, so 25 of its 
LCOs did not make the February 1, 45 percent threshold. While 
New York City as a region made the threshold, it has had some 
problems. Eleven of its LCOs were below the 45 percent 
threshold. The Atlanta region, which was another one of those 
regions, unfortunately covers Florida as well, and there are 
pockets of problems in Florida.
    You asked if there is a consistent lesson, which is a 
tendency that urban areas are the ones that have, typically, 
the hardest problems recruiting. We saw that in 1990. We saw it 
in dress rehearsal. We're seeing it again in 2000.
    Among the things that the Bureau is doing is that they are 
intensifying recruitment efforts. In some locations, they are 
studying the possibility of raising some wage rates. Dallas is 
the region that has done among the very best in terms of its 
recruitment. And while the census is always local, there are 
some real lessons learned there going on in trying to replicate 
some of the lessons that Dallas has done in terms of its 
recruitment effort. Apparently one of the things that a number 
of the regions have learned from Dallas is how important it is 
to really support the regional recruiters and the local 
recruiters to give them some additional training and help. And 
so there is that leverage that's going back and forth.
    Robert, you're closest to the field. Do you have anything 
that you want to add in particular?
    Mr. Goldenkoff. Yes, we can talk specifically about this 
issue. Let's first mention some things that are specifically 
being done in the Dallas region. Postcard mailings they said 
have been very helpful. Extensive training of recruiting 
assistants who enhance the message of the importance of the 
census. There's a lot of activity going on with the partners. 
There have been websites set up and State and local governments 
have put up websites to assist in recruiting. There's a 1-800 
recruiting hotline. So there have been a number of procedures 
put into place to facilitate the recruiting.
    Mrs. Maloney. OK. Your report, Mr. Mihm, also says that the 
dress rehearsal data suggests that the Bureau's outreach and 
promotion program may have only a modest impact on the mail 
response rate--that the advertising that was done during the 
dress rehearsal was extremely minimal and really not very 
professional--certainly nothing like the very professional 
program in so many different languages and nationalities and 
ethnic groups that the $100 million-plus campaign now has 
going. Don't you think that this nationwide campaign may have 
more of an impact than it did on the dress rehearsal?
    Also the activity that I'm hearing from my colleagues, some 
of them are organizing marches and handing out literature. One 
has developed her own contract that she's handing out to every 
constituent: I pledge I'll fill out my form. My own personal 
favorite is the census in the schools. I am convinced if we 
could meet with each superintendent and get them to put that 
into the schools that that would increase dramatically.
    One member had a great idea they shared with me the other 
day. The whole CHIP program, the enrollment of children in the 
health care plan that is way behind expectations, partnering 
with them as they're enrolling these young people, also 
enrolling and reminding their parents about the importance of 
filling out the census form.
    Maybe it's because I'm living it every day. I see all this 
activity and all these ideas and I'm more optimistic of 
generating knowledge and a desire to fill out that form and 
send it back. But you are not particularly optimistic in your 
report, based on the dress rehearsal. But I don't think that's 
very indicative of what we have going on in the field now.
    Mr. Mihm. We're hopeful, with you, that all of these 
additional efforts will make a difference. And I completely 
agree. We tried to capture this in the report, that there is a 
lot going on for the 2000 census that obviously was not going 
on for the dress rehearsal.
    Mrs. Maloney. Even an ad during the Super Bowl.
    Mr. Mihm. Yes.
    Mrs. Maloney. The test that everybody remembered. Fill out 
your form. Don't leave it blank. So, I mean, I think there's a 
tremendous amount of effort out there.
    Mr. Mihm. I happened to be watching the Super Bowl with my 
daughter who's 9 and she picked on why are they having 
classrooms in the janitor's closet. Will we have to do this, 
Dad? We're in Fairfax and I said, no, honey, they put you all 
in trailers out back. That's the Fairfax issue. [Laughter.]
    Mrs. Maloney. Your daughter said that?
    Mr. Mihm. No, I was the one who told her they put them in 
trailers. [Laughter.]
    But she was very concerned. So they've hooked into 9-year-
olds at least on this. And so it's clearly a larger, more 
persuasive ad campaign. The unknown, and this was the point 
that we were trying to make in the report and I think the 
Bureau is wise in not saying that, oh, the paid advertising 
campaign is going to give us this much of a bump in the mail 
response rate. What is unknown is whether we've broken that big 
historical pattern, the difference between awareness and 
motivation. We're certainly hopeful, as is everyone else, that 
as people get more aware, this time around they will be 
motivated.
    But in the dress rehearsal, we had very, very high levels 
of awareness in 1990--very, very high levels of awareness--it 
just didn't translate into a mail response. And that's going to 
be the critical juncture.
    Now the Bureau's ad campaign is moving into its second 
phase. The first phase that Dr. Prewitt talked about last week 
was just awareness, letting us all know that the Census is 
there. And now we're really getting into the intensive 
motivational part. You noticed the kick-off yesterday and I 
didn't get a chance to see the TV this morning, but I 
understood there was going to be something this morning in New 
York and elsewhere on this.
    Mrs. Maloney. You can't walk down the streets in New York 
and not see a sign to apply for a census job. I mean, it is 
literally everywhere. They have it up in stores. They have it 
everywhere.
    Mr. Mihm. That's great news.
    Mrs. Maloney. I'm really impressed. Maybe they're doing it 
just around my home and my neighborhood. [Laughter.]
    Because they know I'm on the case. But, believe me----
    Mr. Mihm. We'll check for you. [Laughter.]
    Mrs. Maloney. I'm really, really impressed. I mean, you 
see, if we don't make it through this next election, we'll have 
a job out there. [Laughter.]
    But my colleague has a lot of important questions to ask.
    Mr. Miller. Well have another round, too. Mr. Davis.
    Mr. Davis. Only one. Actually, I want to get back to the 
individuals who are homeless, who have no stability in terms of 
addresses to followup with. And, given the fact that we're 
going to be into spring, which means the weather will hopefully 
be good, it really increases the numbers of people who move 
about without any place that they call home or where you can go 
looking for them to actually find them. Have you seen any 
evidence of the Bureau's ability to reach those people to find 
them?
    Mr. Mihm. Certainly, sir, the Bureau is undertaking a far 
more serious effort in 2000 than in 1990. That's not the right 
word. I don't mean to imply it wasn't serious in 1990. It's a 
far better designed effort this time around. In 1990, they had 
a single night that they called S Night in which they went out 
and they attempted to count people on streets and they went to 
shelters and attempted to count people here. This time it is a 
far more intensive effort covering a couple of nights in which 
they're going to be out looking for people. We plan to be 
monitoring that and be prepared to report back to the 
subcommittee on how it's going.
    But, as you know, the thesis behind your question is right 
on about how difficult it is to get these people because the 
challenge the Bureau faces is that, especially people on the 
street, is that many of them don't want to be enumerated. And, 
you know, as we hear each year when, unfortunately, when some 
people freeze to death because they won't even go to a shelter, 
you can imagine how difficult it gets, then, to get them to be 
willing to talk to an enumerator.
    And so the Bureau really faces a very, very difficult task 
in getting the people without traditional housing.
    Mr. Davis. Well, I'm really pleased to know that because, 
while the numbers in many instances may not appear to be that 
great, and in some instances they're not, but in others I think 
that they're quite substantial. And that every effort has got 
to be made to try and reach those individuals. Because even 
when we start talking about the return of resources, obviously 
these are the communities and these are the people who need 
those resources the most, trying to help them out of the 
situations that they're currently in. And so I'm very pleased 
to know that and I thank you very much.
    Mr. Mihm. One thing that it's important that we all keep in 
mind, Mr. Davis, is that the Bureau does not release a count of 
the homeless population. They release a count of people where 
they happen to reside. Some people live in streets. Some people 
live in shelters. Some people live in other housing. And they 
leave it up to others to, if they wish, to come up with a 
homeless count on that.
    And the point there is that it is important that we not 
just take the number of individuals enumerated in streets or 
shelters and automatically assume that that is the total of the 
Nation's homeless population. It could be quite larger.
    Mr. Davis. Thank you. Thank you very much, Mr. Chairman.
    Mr. Miller. We'll continue the questions. I have a short 
one. The 61 percent, what is your projection?
    Mr. Mihm. Well, we don't have an actual projection, Mr. 
Chairman, but let me tell you about the source of a little bit 
of our concern on that. The Bureau met its mail response rate 
goals during the dress rehearsal. They're always lower for a 
dress rehearsal. It's usually in the 50's, about 55 percent.
    But they met that using a second questionnaire, which, for 
a variety of reasons, primarily because of public confusion and 
matching problems, they decided not to pursue for the 2000 
census. Now what they did is that led them to reduce their 
expected mail response rate for 2000 from 65 percent to 61 
percent.
    Our point is, and we try to make this clear in the December 
report, that the bump that they got from this second 
questionnaire during the dress rehearsal was actually much 
greater than 4 percentage points. They got in some cases I 
think it was between 4.5 or a minimum of 4.5 but it went up to 
as much as 15 percentage points in some locations.
    And so it's a real concern to us and we haven't seen from 
the Bureau an articulation of: we understand we got a huge hit 
out of the second questionnaire. We're not using the 
questionnaire. Here's how we think we're going to make up the 
difference between what that second questionnaire would have 
given us.
    Mr. Miller. Compared to 1990, how many enumerators are they 
projecting? Do you know?
    Mr. Mihm. They are projecting to hire 500,000----
    Mr. Miller. But in 1990, what was it?
    Mr. Mihm. In 1990, they ended up, I think they had 
positions for 370,000 or thereabouts and ended up hiring, 
because of turnover, well over 500,000. I'll have to get you 
precise numbers on that, sir.
    Mr. Miller. One more quick question, a question to followup 
Mr. Davis on the double-counting issue, is the DCS capable of 
reducing that and minimizing that compared to 1990? The 
computer, as far as the double-counting? If a college student 
is counted twice, we want to avoid that, of course. I think 
they're better prepared to do that. How would you rate their 
ability?
    Mr. Mihm. The reason we were kind of passing the microphone 
back here is that it's not so much a DCS issue. It's an issue 
dealing with their match rules. We have not looked at the match 
rules this time around, but we'd certainly be willing to take a 
look at those and get back to you with that information.
    Mr. Miller. I was just thinking in terms of being a little 
more sophisticated, computerwise, for 2000. They should have a 
better ability, I would hope----
    Mr. Mihm. They should have.
    Mr. Miller [continuing]. To catch----
    Mr. Mihm. One would hope, but we'll have to report back to 
you on that one.
    Mr. Miller. Would the GAO be investigating and evaluating 
the Bureau's ACE plans?
    Mr. Mihm. Your office has made it clear that, as has Mrs. 
Maloney's, once this hearing is over, they want to sit down 
with us and continue discussions that we have begun about what 
we're going to be doing for 2000 and beyond. That is certainly 
something that we expect that you and Mrs. Maloney will ask us 
to look at.
    Mr. Miller. Do you have any idea how far along the Bureau 
is in planning for the ACE? And have you any indication as to 
when they will have a complete operational plan? And do you 
feel they are where they should be on a preparation timeline 
for ACE?
    Mr. Mihm. We haven't looked at ACE directly in quite some 
time. I can report that a couple of weeks ago, the National 
Academy of Sciences held a fairly major symposium. I think Dr. 
Prewitt mentioned it in his last hearing, I know there were 
members of your office that were there. The NAS brought in just 
about anyone who is anyone on the issues of statistical 
adjustment, both pro and con.
    One of the common themes that I heard coming out of that 
was that the Bureau really does need to start locking down some 
of the procedures that it's going to use for the ACE and for 
adjustment. I detected a bit of a tone of frustration from some 
of the experts there that it's time for the Bureau to start to 
move beyond. ``Well, here's one option, here's another 
option,'' and actually get into, here's what we think we're 
going to do.
    Mr. Miller. Please outline the GAO's plans for future field 
investigations into the decennial census activity.
    Mr. Mihm. I obviously want to stress, sir, that this is 
subject to your approval and Mrs. Maloney's approval. I mean, 
we work at the behest of this subcommittee.
    What we have planned to do is to look at--well, we've made 
contacts with people in the regional offices. We're then going 
to be looking at a subset of local census offices, probably in 
the neighborhood of 20 to 30, somewhere in there. It depends on 
resources. It depends on where our colleagues in the Inspector 
General's Office are going to be to make sure that we minimize 
any disruption and any overlap and appropriately leverage off 
of what they're doing. And we're hoping to be----
    Mr. Miller. Does that mean you'll get to different places 
or will you try to go to the same places?
    Mr. Mihm. We're hoping that we can ask a consistent set of 
questions in different places. We are also sensitive, though, 
that we also have different reporting requirements. And this is 
one of the issues that we get into with the monitoring board 
and others is that we report directly to the Congress. They 
have other constituencies or other things that they have to 
report to.
    What we're going to be doing is looking to get into the 
field and visit these local census offices at two points. One 
within the next couple of weeks before peak census operations 
begin. And, second, as I alluded earlier, toward the end of 
non-response followup to get a real sense on how are we doing 
on close-out; what sort of pressure, if any, is being applied 
to let's get out of the field early; are we doing everything we 
can to get full enumeration with the final cases or are we 
closing up prematurely.
    Mr. Miller. How many people do you have, approximately, 
assigned or will have assigned to the census issue over these 
next couple of weeks?
    Mr. Mihm. We're very fortunate in GAO that we operate using 
an approach to matrix management and so it's, directly, working 
full-time on census work, we probably have about eight people, 
as well as a couple of--Randy is very kind to devote a lot of 
his time and his staff on information technology issues. 
Colleagues in a different part of the office did the report for 
you and Mrs. Maloney on the budget scrub last year and they've 
devoted resources as well. We're quite confident that we will 
be able to meet any requests that you give us.
    Mr. Miller. Let me ask one more question and then I'll be 
finished. The 2010 census, are you all looking at--I meant to 
ask Dr. Prewitt this--preparing for 2010, running some tests? 
Are you looking at that at all or do you have any comments 
about it?
    Mr. Mihm. We will be looking at it. One of the things that 
I learned coming out of the 1990 census--or there's actually a 
couple of things. One is the importance of conducting 
appropriate tests during a live census that point to the next 
census. And then the second thing is the importance of starting 
early with your census planning effort. There was a big problem 
of some controversy here in that the Bureau's planning efforts 
for the 2000 census really didn't tee up for Congress a lot of 
the key issues until relatively late in the decade, causing the 
Census Bureau to have to rethink its approach.
    One of the things that the Bureau is exploring--and we're 
certainly going to encourage them in this regard. We encouraged 
them last time as they were preparing for 2000--is looking at 
the use of administrative records. Either to, at the broadest 
extreme, to help with the basic enumeration and to even its 
subsets, to help with some of the coverage improvements, to 
programs to try and look for missing elements.
    One of the highest undercounted groups are children under 
5. And so there are opportunities to use administrative 
records, whether it be school records or anything or Head Start 
records. There are all sorts of policy and privacy concerns in 
there. There are all sorts of technical issues and records 
matching. But this is the time in the decade to start thinking 
toward 2010 for issues such as these.
    Mr. Miller. I agree. I think, you know, whether it's the 
WIC program--there are a lot of programs--or the Indian 
reservations in undercounted areas, there are a lot of 
administrative records that I would think could be useful and I 
know they don't use them now except for our military and such. 
But I am hopeful for that.
    Mrs. Maloney.
    Mrs. Maloney. Certainly. Thank you. Thank you, Mr. 
Chairman.
    One of the conclusions you've reached in this report is 
that the Bureau's estimated 61 percent mail response rate in 
2000 may be optimistic for two reasons. The first is the 
decision not to employ a second mailing as was done in the 
dress rehearsals. And let's clarify this please, you're not 
suggesting that the Bureau change its operational plan to 
include a second mailing, are you?
    Mr. Mihm. No, Ma'am. Not at this point, no.
    Mrs. Maloney. But in your report, you suggest that the 6 
percentage point reduction and the estimated mail response rate 
from 67 percent to 61 percent may not have been large enough 
since evaluations of the dress rehearsal indicate that it may 
have been responsible for a greater percentage of responses 
than that.
    Mr. Mihm. Yes, Ma'am. We are not advocating that they go 
back to a second questionnaire, in part because we didn't have 
the time to fully evaluate whether or not there was the 
matching issue in the scope that they said it would be. But 
what we were pointing out in this report is that the second 
questionnaire gave them a sizable bump in the mail response 
rate during dress rehearsal. They took some reduction in the 
anticipated mail response for 2000. It doesn't appear, though, 
that they took as much as they should have.
    And so our question for the Bureau is, where are we going 
to make up the difference? During the dress rehearsal, it gave 
you 8 or more percentage points. You reduced your 2000 expected 
much less than that. Where are you going to make up the 
difference? And that's what our concern is.
    The only thing that, and I don't want to waste your time 
here, but the other thing that we wanted to point out is that, 
for the Census, it's only a 1 or 2 percentage point difference 
that can be a real challenge. You heard Dr. Prewitt mention 
that last week, that he can probably handle 60, 61, but if he 
starts getting to 59 percent, he gets in a heap of trouble in a 
hurry. Each percentage point is another 1.2 million cases. And 
so we don't need a catastrophic event, which certainly nobody 
wants, in order to be in a very difficult place in a hurry.
    Mrs. Maloney. But, please, you compared results from the 
nationwide testing which the Bureau conducted into a second 
mailing with the results from the dress rehearsal. Explain how 
it affected your analysis.
    Mr. Mihm. I'm sorry, Ma'am. The nationwide test?
    Mrs. Maloney. Yes. The nationwide testing which the Bureau 
conducted, you put that into the second mailing with the 
results from the dress rehearsal. Can you put those two numbers 
together?
    Mr. Mihm. What we did is we took it--no, we took the second 
mailing--the percentage of households that responded during the 
second mailing in the two principal locations, that is the 
Sacramento and South Carolina. We subtracted out of that, out 
of there overall mail response rate, the people that responded 
due to a second mailing and got another mail response rate. And 
rather than it being in the 50's, it was typically, therefore, 
down in the 40's mail response rate. Again, comparisons between 
the dress rehearsal and the census must be made with caution.
    We got down to a mail response rate in the 40's and said we 
saw where the Bureau had taken a reduction in the anticipated 
2000 mail response rate. It was just not equivalent to the 
percentage point increase that they got from the second mailing 
in the dress rehearsal. Our question for the Bureau was, and 
remains, is how are we going to make up the difference? Where 
does that difference come from? And, you know, it's hoped that 
it will be through the ambitious and national ad campaign.
    Mrs. Maloney. OK. You mentioned in your testimony that the 
contractor for the development of the software is Lockheed 
Martin and it has been independently rated very highly. Would 
you elaborate on that, please?
    Mr. Mihm. Yes, Ma'am. That's Randy.
    Mr. Hite. The rating that we're referring to is the 
Carnegie Mellon Software Engineering Institute's capability 
maturity model, which lays out effective practices that a 
mature software development organization would possess. It 
rates organizations on a scale of 1 to 5, with 5 being the 
highest level of maturity. In this case, Lockheed Martin's 
mission systems division, in particular, has recently been 
rated as a level 5 organization. So it's a very mature, very 
capable, very effective software development organization, 
which is a huge plus that the census is doing business with an 
organization like that.
    Mrs. Maloney. Are many software companies rated as 5? Or is 
it unusual to have the higher rating?
    Mr. Hite. That's a lofty group of companies. It is not a 
large number of organizations that I am aware of that have 
obtained that level of maturity.
    Mrs. Maloney. And how was the contractor selected? Was it 
done through competitive bidding or only stage 5 could apply? 
How was it done?
    Mr. Hite. I do not have that information. I would be happy 
to provide that for the record.
    [The information referred to follows:]

    The DCS 2000 contractor was selected through a competitive 
RFP. A public notice was published in the Commerce Business 
Daily. There was no specific mention of a minimum CMM 
accreditation level in the RFP.

    Mrs. Maloney. Thank you.
    You also said that the results from system level tests show 
that the DCS 2000 performance targets are being met. What are 
some of those targets? Let's get something positive out here. 
The positive things that have been met.
    Mr. Hite. There are a number of performance measures that 
are used to measure how well the system is performing. There 
are throughput numbers in terms of the number of forms that are 
being moved through the sorters and the scanners, for example. 
And while the numbers from the tests that were performed at 
Pomona were below the target levels, and I can provide the 
precise numbers for the record, if you're interested, these 
tests were also repeated in the Phoenix test, which was 
completed recently. The Census Bureau has informed us that they 
have exceeded the goals with regard to both the sorters and the 
scanners, in terms of throughput of the number of forms that 
moved through the system.
    Mrs. Maloney. In your discussion of the data capture 
system, you also indicated that the productivity rates observed 
during operational testing in California, Pomona, CA, were 
below expectations. Have you examined the data from the other 
test sites? And, if so, what were your results?
    Mr. Hite. The numbers for the key from image productivity 
rates on the part of keyers were below the model numbers that 
were expected. And, what has happened as a result of that, is 
that changes to the DCS 2000 system have ensued. So, in fact, 
what they're doing is modifying the system so that the 
workloads that the key from image keyers would be receiving 
will be reduced. So here was a case where, not the system, but 
the human element of operating the system was not performing up 
to expectations. And, to respond to this problem, the solution 
has been to modify the system so that Census will conduct a 
two-pass read of the forms. And, initially, they'll just 
extract the 100 percent data from the forms and then the sample 
data will be collected at a later point in time.
    Mrs. Maloney. I understand that there will be a four-site 
full-load test of the data capture system next week. Would you 
explain what is involved in that test and exactly what you're 
looking for?
    Mr. Hite. At this test, they will be operating all four 
centers at the production levels that they expect during the 
actual data capture operations. All software, all releases, all 
hardware will be in place at all the centers. That's the plan. 
Census will be able to simulate actual operations, that is, 
post March 6 environment when the data capture centers are to 
be operational. They will be operating centers simultaneously.
    So not only will it be able to test the performance of the 
data capture centers, but also, for example, how well the 
centers are transmitting data to headquarters so they can 
monitor how well data capture operations are proceeding. So it 
will allow them to test the full operation of the system in a 
real-live operational environment as we will have to do during 
the actual data capture operations.
    Mrs. Maloney. What remains to be tested before everything 
is fully operational?
    Mr. Hite. As recently as Friday, and I believe actually it 
was over the weekend, the final software release, which was 
software release 23, was sent out to the field. This software 
release, along with the releases that preceded it, will be 
tested as an integrated set, along with some hardware that has 
been added recently, associated with additional disk drives for 
storage. These will be tested from February 22 to February 25 
as part of this operational test.
    So what remains to be tested is not only the capability 
that has been deployed here recently, but also the correction 
of the problems that have surfaced as part of the Pomona test. 
We don't yet have all the information from the Phoenix tests or 
the Jeffersonville tests to find out what kind of problems 
surfaced.
    But what happens is you do these tests, then you identify a 
problem and you fix the problem. Then you send out the patches 
to the software to correct those problems. Then you test them 
to make sure they're operating correctly. This last test of all 
four sites will be testing, hopefully, the completed system in 
a real-live operational environment.
    Mrs. Maloney. My last question: Where will you be on census 
day? [Laughter.]
    Will you make sure you're counted?
    Mr. Mihm. Well, we're going to enumerate before census day. 
We're going to send it as soon as we get the form, Ma'am. 
[Laughter.]
    Mr. Miller. Two more questions. You tell me the data 
capture system is--apparently they're going to do a two-path 
system now. What are the ramifications of that? That the first 
path will be the seven questions is my understanding, and then 
they're going to have to rerun all of the long form? Is that 
right? What are the ramifications for doing that?
    Mr. Hite. You are correct. What they will do is they will 
still run the forms through and create the digital image of the 
short forms and the long forms. What they'll do differently 
concerns the optical scanning of the marks on the forms and the 
characters on the forms. They'll only run the seven questions, 
the 100 percent data. That's all they will extract. The images, 
then, will be stored on some hardware that they've recently 
acquired. And then, later on, once they've completed the data 
capture of 100 percent data, they will retrieve the digital 
images from disk storage and they will extract the sample data 
from the long forms. That will be submitted to census 
headquarters.
    There are issues associated with this, one of which is the 
changes to the system associated with the retrieval from disk 
storage, rerunning the images and extracting the data. Those 
changes have not yet been made to the DCS 2000. Those are going 
to have to be made over the ensuing months. So that's an issue.
    There are also downstream issues in terms of how the two 
pass, if at all, affects the processing operations at 
headquarters. I don't know that they do or don't, but that's a 
potential issue. What I suspect is that there could be other 
issues.
    Mr. Miller. What about the delayed release of all that 
information? Is that a factor or not?
    Mr. Mihm. We're going to be looking into that, sir. 
Certainly much of the information on the long form is required 
to be collected by separate statute. And we have our attorneys 
back at GAO right now going through that and trying to figure 
out when that information, by statute, has to be available.
    Mr. Miller. Let me ask one more clarification on this 
second mailing issue. There's no question that it's too late to 
consider a second mailing now or even months ago. But 2 or 3 
years ago, with what you know today would your recommendation 
have been to do a second mailing if they could have planned for 
it 2 years ago?
    Mr. Mihm. It certainly would have been worth more 
investigation on their part. The initial argument that the 
Bureau made in rejecting a second mailing is they said the 
public, and they had some data in South Carolina, was confused 
by the second questionnaire. And they held up press articles of 
people saying they got two census forms. It's difficult for me 
to imagine that given as sophisticated as their ad campaign is, 
they couldn't have designed a component that says, you're going 
to get two census forms. You know, if you've already filled in 
the first, don't fill out the second. We all subscribe to many 
magazines and the bills say, if your payment crossed this bill 
in the mail neglect this.
    It was then, later on, though, they began to raise the 
issue that they would have trouble matching, because they would 
just be completely overwhelmed with these second 
questionnaires. Again, perhaps a sophisticated ad campaign 
could have reduced the number of duplicate questionnaires that 
they would have gotten in and maybe the matching could have 
taken care of it. That is certainly something in the type of 
the thing that they need to be studying early in the decade for 
2010 and not wait until the dress rehearsal, which is supposed 
to be the final operational test, to be rejecting such a major 
element of the census.
    Mr. Miller. Thank you. Let me thank you very much for being 
here today. And, as we've asked Dr. Prewitt to come and brief 
us on a regular basis, I hope you will come back on a regular 
basis in these next few months that are critical. So let me 
thank you again for everything you've been doing on the census.
    I ask unanimous consent that all Members and witnesses 
written opening statements be included in the record. Without 
objection, so ordered. In case there are additional questions 
the Members may have for our witnesses, I ask unanimous consent 
for the record to remain open for 2 weeks for Members to submit 
questions for the record and that the witnesses submit written 
answers as soon as practicable. Without objection, so ordered.
    Thank you very much.
    Mr. Mihm. Thank you, Mr. Chairman.
    Mr. Miller. Adjourned.
    [Whereupon, at 3:29 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Danny K. Davis and 
additional information submitted for the hearing record 
follow:]
[GRAPHIC] [TIFF OMITTED] T6541.021

[GRAPHIC] [TIFF OMITTED] T6541.022

[GRAPHIC] [TIFF OMITTED] T6541.023

[GRAPHIC] [TIFF OMITTED] T6541.024

[GRAPHIC] [TIFF OMITTED] T6541.025

[GRAPHIC] [TIFF OMITTED] T6541.026

[GRAPHIC] [TIFF OMITTED] T6541.027

[GRAPHIC] [TIFF OMITTED] T6541.028

[GRAPHIC] [TIFF OMITTED] T6541.029

[GRAPHIC] [TIFF OMITTED] T6541.030

[GRAPHIC] [TIFF OMITTED] T6541.031

                                   - 

</pre></body></html>
